No. 19-266
In The

(Enurt nf ti}e

Seantrey Morris,
Petitioner,
V.

Joseph Mekdessie; Brandon LeBlanc; Daniel Swears; Arthur S. Lawson, in his
Official Capacity as Chief of Police, City of Gretna Police Department;
Gretna City,
Respondents.

As required by Supreme Court Rule 33,1(h), I certify that the document contains 7,087
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 11, 2019

!

